HHS/OIG - Audit - "Review of the Administrative Cost Component of the Adjusted Community Rate Proposals for a Pennsylvania Plan," (A-14-00-00209)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Administrative Cost Component of the Adjusted Community
Rate Proposals for a Pennsylvania Plan," (A-14-00-00209)
August 23, 2001
Complete Text of Report is available in PDF format
(468 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Presently, there is no statutory or regulatory authority governing allowability
of costs in the adjusted community rate (ACR) process, unlike other areas of
the Medicare program.  Our review showed that if cost principles applicable
to Medicare's fee-for-service program were applied to Medicare+Choice organizations,
$37,649 of the Plan's administrative costs should not have been included when
computing the ACRs.   These administrative costs included donations, gifts,
political contributions, memberships, sponsorships, entertainment, parties,
alcoholic beverages, broker commissions, and promotional giveaways.  Because
of a lack of criteria for inclusion of administrative costs on the ACR proposal,
there are no recommendations addressed to the Plan.  Instead, based on
the results of our nationwide review, we will be making recommendations to CMS
concerning the ACR process.